<html>
<title> - ANIMAL FIGHTING PROHIBITION ENFORCEMENT ACT OF 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                      ANIMAL FIGHTING PROHIBITION 
                        ENFORCEMENT ACT OF 2005

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                                H.R. 817

                               __________

                              MAY 18, 2006

                               __________

                           Serial No. 109-115

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

27-607 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001







                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                     Michael Volkov, Chief Counsel
                          David Brink, Counsel
                        Caroline Lynch, Counsel
                 Jason Cervenak, Full Committee Counsel
                     Bobby Vassar, Minority Counsel

























                            C O N T E N T S

                              ----------                              

                              MAY 18, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

Mr. Wayne Pacelle, President and Chief Executive Officer, Humane 
  Society of the United States
  Oral Testimony.................................................     4
  Prepared Statement.............................................     7
Mr. Mark E. Pollot, Executive Director, Foundation for 
  Constitutional Law, on behalf of United Gamefowl Breeders 
  Association
  Oral Testimony.................................................    20
  Prepared Statement.............................................    21
Mr. David R. Hunt, Deputy, Franklin County Sheriff's Office, 
  Columbus, OH
  Oral Testimony.................................................    26
  Prepared Statement.............................................    28
Ms. Francine A. Bradley, PhD, Department of Animal Science, 
  University of California at Davis, Davis, CA
  Oral Testimony.................................................    31
  Prepared Statement.............................................    33

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Mike Pence, a Representative 
  in Congress from the State of Indiana..........................    52
Written Supplement to Testimony of Mark L. Pollot................    53
Prepared Statement of W. Ripley Forbes, Director of Government 
  Affairs, American Humane Society...............................    56
Letter from Kurt P. Henjes, Assistant General Counsel for 
  GlaxoSmithKline, to the Honorable Howard Coble.................    59
Statement from the American Veterinary Medical Association in 
  support of H.R. 817............................................    60



















          ANIMAL FIGHTING PROHIBITION ENFORCEMENT ACT OF 2005

                              ----------                              


                         THURSDAY, MAY 18, 2006

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:31 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Howard 
Coble (Chairman of the Subcommittee) presiding.
    Mr. Coble. Good morning, ladies and gentlemen. We will 
convene the hearing. There will be a floor vote imminently, I 
am told, and we don't have a reporting quorum present, so Mr. 
Scott and I are going to give our opening statements, and then 
perhaps we'll be able to move along after that.
    This hearing is to examine the issue of animal fighting in 
this country and whether Congress should take additional steps 
to address the issue. Animal fighting is not restricted to 
cockfighting, but also includes pitting dog against dog, or 
dogs against other animals, such as bears or wild hogs. Often 
small knives are attached to the animal for use in the fight.
    In 1976 Congress passed a law to ban the sponsor or exhibit 
of animals that were moved to interstate or foreign commerce in 
an animal fighting venue. The law also made it illegal to 
transport an animal in interstate or foreign commerce for 
participation in an animal fighting venue.
    On May 13th, 2002, Congress enacted amendments to the 
Animal Welfare Act. The changes made it a crime, regardless of 
State law, for exhibiting, sponsoring, selling, buying, 
transporting, delivering or receiving a bird or other animal in 
interstate or foreign commerce for the purpose of participation 
in an animal fighting venue such as cockfighting or 
dogfighting. For States where fighting among live birds is 
allowed under the law, the act only prohibited the sponsor or 
exhibit of a bird for fighting purposes if the person knew that 
that bird was moved in interstate or foreign commerce.
    Currently dogfighting is prohibited in all 50 States and 
cockfighting is outlawed in most States under specific laws 
prohibiting it or general prohibitions against animal fighting. 
In a few States the practice is not specifically outlawed. 
However, general animal cruelty statutes may be interpreted to 
outlaw such activities. In two States cockfighting is legal. 
Dogfighting and cockfighting are legal in some United States 
territories. Although the possible fines were increased in 2003 
from $5,000 to $15,000, the possible term of imprisonment of 
the Animal Welfare Act dealing with animal fighting has not 
been updated since the original enactment in 1976.
    H.R. 817, the ``Animal Fighting Prohibition Enforcement Act 
of 2005,'' would establish criminal penalties under title 18, 
authorizing jail time of up to 2 years for violations of 
Federal animal fighting law, rather than the misdemeanor 
penalty up to 1 year which currently exists under title 7.
    Supporters of this legislation believe that the increased 
penalties will encourage law enforcement to target animal 
fighting operations and discourage the promotion of animal 
fighting events. Because most States already have laws against 
animal fighting and the animal fighting industry relies on 
transport of animals over State lines, supporters of the bill 
believe a combined Federal-State approach is essential to give 
law enforcement officers the tools to crack down on animal 
fighting.
    Opponents of this legislation, however, contend that it is 
an unnecessary infringement of States' rights. The States that 
choose to allow fighting among live birds should be allowed to 
continue these fighting venues as long as the State 
legislatures and voters determine it is lawful. The Federal 
Government does not need to enact additional legislation to 
combat these venues, according to the opponents.
    I look forward to hearing from our distinguished panel 
today. And even though there's a vote on now and we still don't 
have a reporting quorum present, I think, Bobby, let's go ahead 
and we'll hear from the distinguished gentleman from Virginia, 
the Ranking Member, for his opening statement. Then we will 
briefly adjourn and go vote and return.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. I'm pleased to join you 
in convening this hearing on H.R. 817, the ``Animal Fighting 
Prohibition Enforcement Act of 2006.'' I'm a cosponsor of this 
bill, along with 226 of my House colleagues, including 28 of 
the 40 Members of the Judiciary Committee and 51 Members of the 
Senate, where an identical bill has already passed by unanimous 
consent. This bill has been supported by over 500 organizations 
and almost 400 local law enforcement agencies.
    What the bill does is to modify already existing Federal 
law to make it a felony with a fine of up to 2 years 
imprisonment as opposed to the current penalties of a 
misdemeanor with a fine and up to 1 year of imprisonment for 
transporting animals involved in interstate--for transporting 
animals interstate for fighting. DOJ priorities mean that this 
is rarely a prosecution under this law because even if there 
is, the misdemeanor plea gets bargained, leaving many violators 
willing to consider this merely a potential cost of doing 
business.
    I believe that such a violator is much more likely to think 
twice about risking a felony record and as much as 2 years in 
prison. I'm generally not in favor of more Federal criminal law 
enforcement in areas of traditional State jurisdiction, and not 
generally in favor of raising criminal penalties to entice DOJ 
to do its job. I prefer to direct DOJ to enforce the law and 
provide the resources to do so. However, I believe a few 
prosecutions with felony convictions can have a major impact, 
and that's why I'm supporting the bill.
    One of the more recent concerns regarding interstate and 
international transport of birds for cockfighting is the fear 
that it could cause the transmission of bird flu, and 
apparently, this has already occurred in Asia.
    So, Mr. Chairman, I'd like to use the remainder of my time 
to show a brief video clip providing important documentation of 
that concern.
    Mr. Coble. Without objection.
    [Videotape played.]
    Mr. Coble. I thank the gentleman. We will depart for our 
vote, and I implore the Members, if you can, to come back so we 
can mark up our four pending bills, and then we will hear from 
out distinguished panel.
    So you all rest easy in the meantime.
    [Recess.]
    Mr. Coble. Folks, I apologize for this, but this is the 
nature of the beast oftentimes, what oftentimes goes awry, but 
you all rest easy. We ought to be able to get started pretty 
soon.
    [Pause.]
    Mr. Coble. Folks, we're doing this procedurally 
irregularly, but I think that's what we're going to have to do. 
We're just going to have to wait until a reporting quorum shows 
up. At that time, we will suspend and mark up. And, Mr. 
Lungren, if you need to go to your meeting, you may do so. We 
look forward to seeing you back later.
    Ladies and gentlemen, we have four distinguished witnesses 
with us today. Our first witness is Mr. Wayne Pacelle. Am I 
pronouncing that correctly, Mr. Pacelle?
    Mr. Pacelle. Close enough, Mr. Chairman.
    Mr. Coble. Thank you. Mr. Pacelle is the Chief Executive 
Officer of the Humane Society of the United States, where he 
began working as a Vice President of Government Affairs and 
Media in 1994. Prior to his work with the humane society he 
served as Executive Director of the Fund for Animals. Mr. 
Pacelle was graduated from Yale University with a dual major in 
history and studies in the environment.
    Our second witness is Mr. Mark Pollot, the Executive 
Director of the Foundation for Constitutional Law, and an 
attorney and independent consultant on constitutional, 
environmental, international and public policy matters. Mr. 
Pollot was formerly with the Special Assistant to the Assistant 
Attorney General for the Environment and Natural Resources 
Division of the United States Department of Justice. Mr. Pollot 
was graduated summa cum laude from the University of San Diego 
School of Law.
    Our third witness is Corporal David Hunt. Corporal Hunt is 
an investigator with the Franklin County, Ohio Sheriff's 
Department Special Investigations Unit, of which he is a 
supervisor and lead detective for all gambling and dogfighting 
investigations. In 1997 and 2003, Corporal Hunt received awards 
of merit for his work in these fields. His investigations of 
illegal dogfighting have resulted in 59 arrests and over 50 
convictions. Corporal Hunt attended the Sinclair Community 
College in Dayton, Ohio, and as the professional football 
players like to say, Corporal Hunt, THE Ohio State University 
in Columbus, Ohio.
    Our final witness is Dr. Francine Bradley. Dr. Bradley has 
received numerous awards relating to the field of poultry 
health, and is a member of the Poultry Science Association's 
Long Range Planning Committee, the World's Poultry Science 
Association Executive Committee, and serves as chair of the 
World's Poultry Science Association Lab Station Committee. She 
received her BA, MS and PhD degrees from the University of 
California at Davis, where she currently works in the 
Department of Animal Science.
    We are pleased to have you all with us today, and it is the 
custom of the Subcommittee to administer an oath to our 
witnesses, so if you all would please stand and raise your 
hands.
    [Witnesses sworn.]
    Mr. Coble. Let the record show that the witnesses have 
responded in the affirmative, and we will start, Mr. Pacelle, 
with you. We need to remind you, as we have previously advised 
you, we operate under the 5-minute rule. When you see the amber 
light appear on the panel in front of you, that is your warning 
that you have a minute remaining. Now, after the red light 
comes on, we may--Mr. Scott and I may dispatch Corporal Hunt 
and have him take you into custody. We won't be that cruel, but 
when the red light appears, that is your warning to wrap it up 
if you would.
    Mr. Pacelle, why don't you start us off?

   TESTIMONY OF WAYNE PACELLE, PRESIDENT AND CHIEF EXECUTIVE 
          OFFICER, HUMANE SOCIETY OF THE UNITED STATES

    Mr. Pacelle. Thank you, Mr. Chairman, and thank you so much 
for holding the hearing with Ranking Member Scott. Appreciate 
your bringing this issue to the attention of the Committee. 
Also want to thank Representative Green for introducing this 
legislation, and thank all of the Members of the Subcommittee 
who are cosponsors of this bill.
    I represent the Humane Society of the United States, which 
is the Nation's largest animal welfare organization. Nine in a 
half million members and supporters in the United States, 1 of 
every 31 Americans, is directly associated with the HSUS. We 
fight to protect animals, and we work very much on the issue of 
animal cruelty, and I really believe that it is a universal 
value these days that animal cruelty is wrong and that society 
should do something about it. This is codified in all 50 
States. There are 50 States with anti-cruelty laws that target 
malicious acts of animal cruelty, and it's not surprising then 
that all 50 States now have anti-dogfighting laws and 48 States 
have anti-cockfighting laws, codifying this basic notion that 
staged animal fights are wrong and inhumane.
    In 1976 when the Congress adopted a law in the Animal 
Welfare Act banning the interstate transport of fighting 
animals, no State made dogfighting or cockfighting a felony. 
Now 48 States in these last 30 years have adopted felony-level 
penalties for dogfighting and 32 States have adopted felony-
level penalties for cockfighting. The march is inexorable 
toward all 50 States having strong anti-cruelty laws that treat 
the most vicious forms of animal cruelty with felony-level 
penalties.
    So the questions before us today are should the penalty 
provisions of the Federal Animal Fighting Law, which bans the 
interstate transport of foreign commerce in fighting animals, 
should they be updated to reflect the emerging national 
consensus that this form of animal abuse is a social ill and 
that people who violate our animal fighting laws should face 
meaningful penalties? The second question is should the Federal 
animal fighting law be better aligned with State animal 
fighting laws, given in the last 30 years, we haven't updated 
the jail penalties for the animal fighting law, and the States 
have done so to the tune of 48 of the 50 have done so.
    You know, we have many controversial questions in our 
society about the use of animals, but animal fighting is not 
one of them. This is an inhumane and barbaric act, and it has 
very few defenders in this country. That's why you have 500 
organizations supporting the legislation, you have no credible 
organizations opposing this legislation.
    I want to make three very brief points about why we should 
strengthen this law, in addition to those opening remarks. One 
is the animal cruelty. These are staged animal fights where 
animals are not just suffering for a moment, sometimes they're 
suffering for hours. The longest ever dogfight, according to 
our information, lasted a full 5 hours with pit bulls attacking 
each other over that time. Many of the dogs die from 
hemorrhaging or shock, even if they're a winner in the fight, 
later on.
    Hog-dog fights, an appalling practice where hogs have their 
tusks cut off. They're released in a pen, and then pit bulls 
are set upon the hog to attack the animal just for the 
titillation of the people watching. I think all of you know 
this is one of the cock-fighting magazines, The Feathered 
Warrior. You'll see in this magazine all sorts of ads for the 
knives and the ice-pick like devices called gaffes, which are 
affixed to all of the birds' legs to enhance the bloodletting, 
gouged eyes, punctured lungs, all sorts of grievous wounds 
inflicted on these birds.
    So the animal cruelty is the most compelling argument and 
it's the reason that the Humane Society is primarily interested 
in this bill. But we cannot help but notice that these animal 
fighting ventures are associated with other criminal 
activities. Just last week there were two people murdered at a 
cockfight in Starr County, Texas. We've seen public corruption 
associated with cockfighting: Law enforcement officers in 
Hawaii arrested for providing a protection racket for 
cockfighting; the South Carolina Department of Agriculture 
Commissioner was providing a protection racket; and in 
Tennessee some of the most shocking information, two major 
cockfighting pits shut down this last year.
    I want to read just a few excerpts to give you a flavor of 
what is going on in these cockfights. This is from the U.S. 
Attorney in the Eastern District of Tennessee from the brief 
filed in court. ``On March 15, 2003, a cooperating witness 
reported observing approximately 182 cockfights at the Del Rio 
cockfight-pit. On average, between $2,000 and $20,000 was 
gambled by the spectators on each fight.''
    So if you take 182 cockfights with an average of $10,000, 
it's $1.82 million gambled at a single cockfighting derby on a 
single evening.
    Another excerpt: ``The cooperating witness observed a girl 
approximately 10-years-old with a stack of $100 bills gambling 
on several different cock fights. Vehicles were observed in the 
parking lot bearing license plates from North Carolina, South 
Carolina, Alabama, Georgia, Kentucky and Virginia.'' Affirming 
the point that this is an interstate activity. People are 
congregating from multiple States to engage in these criminal 
enterprises.
    A third quick quote: ``On May 17th, a cooperating witness 
attended the Del Rio cockfights and observed that a full 
capacity crowd of approximately 600 to 700 people were present 
at the fights.''
    You saw also the video about the bird flu. My testimony 
refers to the very real link between bird flu and cockfighting.
    Just in conclusion, Mr. Chairman, the House and Senate 
passed felony penalties during consideration of the Farm Bill 
in 2002, so what Mr. Green's legislation does is simply affirms 
what the House and Senate already tried to do. U.S. Attorneys 
have told us it's tough for them to make cases with misdemeanor 
penalties. They want the felony level provisions. We want to 
provide it to them. Local law enforcement, we work with them 
all the time. They want this tool. You'll hear from a law 
enforcement officer today. We urge you to support this 
legislation. We're grateful for the hearing.
    [The prepared statement of Mr. Pacelle follows:]
                  Prepared Statement of Wayne Pacelle

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. Thank you, Mr. Pacelle.
    I stand corrected, best-laid plans of mice and men oft 
times go awry. We are plagued with a malfunctioning panel and 
you will not see the amber light.
    So, Mr. Pollot, when the red light impacts your vision, you 
know that the time has expired. Mr. Pollot, good to have you 
with us. I stand corrected, I am told that it is now 
functioning. Very well, proceed, Mr. Pollot.

TESTIMONY OF MARK L. POLLOT, EXECUTIVE DIRECTOR, FOUNDATION FOR 
   CONSTITUTIONAL LAW, ON BEHALF OF UNITED GAMEFOWL BREEDERS 
                          ASSOCIATION

    Mr. Pollot. Mr. Chairman, before I begin----
    Mr. Coble. Mr. Pollot, activate your mic, if you will.
    Mr. Pollot. Mr. Chairman, before I begin, I ask your 
permission that my full statement be entered into the record.
    Mr. Coble. Without objection.
    Mr. Pollot. Mr. Chairman, Members of the Subcommittee, 
thank you for the opportunity to speak to you today. My name is 
Mark Pollot. I am appearing on my own behalf and on behalf of 
the United Gamefowl Breeders Association, which has 100,000 
members, and exists to work to improve the perpetuation and 
quality of various breeds of gamefowl, and to improve marketing 
methods, cooperate with universities and agencies in poultry 
disease control, and to develop and enhance general good health 
of gamefowl.
    I have both a medical and a legal background, some of it in 
government. My experience in both areas has provided me with a 
broad understanding of constitutional and regulatory issues, as 
well as an understanding of both epidemiological and public 
health and safety principles, and issues applicable to this 
bill.
    I review proposed regulations and statutes by examining the 
language of the proposed regulation or law to understand its 
intent and its policy, and its history. Then I ask the 
following questions: 1) Is the policy underlying the regulation 
of law sound? 2) Is the policy well executed? 3) Is the policy 
understandable to the regulated public? And 4) Does it comport 
with the Constitution?
    I reviewed H.R. 817 using these criteria, and I 
respectfully submit that it has problems in each of these areas 
that I believe argue against its passage. Other ways can be 
found to achieve the policies underlying H.R. 817 that do not 
have the problems presented by this bill, and which do not have 
unintended consequences that will undermine its policies.
    On review it seems clear that H.R. 817 would further its 
primary policy, assisting some States to enforce their domestic 
laws in a manner that is constitutionally prohibited, 
inconsistent with principles of federalism, unnecessarily 
intrusive on the ordered liberty of individual citizens, and 
counterproductive to some of the stated goals of the 
legislation.
    First. Principles of federalism prohibit such enactments as 
they intrude in an unconstitutional manner on the sovereign 
right of States to make economic and social policy decisions 
within the boundaries of the States. Congress should be 
reluctant to favor some States' policy choices over those of 
other States, especially with those States permitting such 
activities that derive veterinary and public health and safety 
benefits by making sure that those activities are conducted in 
the open where they are subject to regulation, inspection, and 
oversight.
    Second. Individual citizens and the residents of the United 
States have constitutionally protected liberty interests which 
are adversely affected by H.R. 817, including the 
constitutionally recognized right to travel in the United 
States, which includes the right to travel for economic 
purposes. The principles of law in this area deny government 
the ability to prohibit persons from taking or sending the 
stock or tools in trade of their business from a place in which 
the use, possession, and ownership of the stock or tool is 
lawful to another place where it is lawful.
    Third. H.R. 817 imposes an unconstitutional first amendment 
burden on individuals. While certain time, place and manner 
restrictions can be placed on speech, the limitations imposed 
by H.R. 817 go beyond any currently allowed restrictions on 
speech. It infringes both on the rights of the speaker and on 
the rights of citizens to receive such information. Further, 
the language of 817 is sufficiently vague as to deny proper 
notice of illegal behavior.
    Fourth. Animal and public health would be adversely 
affected by this bill. Directly or indirectly banning an 
activity does not end it in some cases, but drives it 
underground. Then regulatory, legal, social and other oversight 
mechanisms either cannot catch problems before they become 
major, or do so with only great difficulty and inefficiency. As 
a result, the very consequences the ban seeks to avoid emerge. 
The solution here is to bring such activities into the same 
regulatory universe as all other animal-related industries 
inhabit. Concern about assisting States in banned fowl-related 
activities which are banned, is better addressed by providing 
law enforcement assistance grants for internal domestic law 
enforcement.
    Finally, H.R. 817 diverts Federal resources to effectuate 
the policy choices of individual States. Given the important 
matters that face the United States today, ranging from 
homeland security to immigration and serious crime, it seems 
inappropriate to apply Federal funds and law enforcement 
personnel and resources to effectuate a policy adopted by 
individual States, who presumably believe that that policy 
deserves the dedication of its law enforcement resources.
    For all of the foregoing reasons, we respectfully ask your 
opposition to H.R. 817. I await your questions.
    [The prepared statement of Mr. Pollot follows:]
                  Prepared Statement of Mark L. Pollot
                            i. introduction
    Chairman Coble, Ranking Member Scott, members of the Subcommittee, 
my name is Mark Pollot and I am appearing on behalf of myself and more 
than 100,000 members of the United Gamefowl Breeders Association 
represented throughout 33 states. The United Gamefowl Breeders 
Association (``UGBA'') was founded in 1975 to represent the interest of 
gamefowl breeders across the nation. The UGBA's primary mission is to 
exchange better methods and ideas toward the perpetuation and 
improvement of the various breeds of gamefowl, to improve marketing 
methods, to cooperate with Universities and other agencies in poultry 
disease control, and to further develop and enhance the general good 
health of gamefowl.
                             ii. background
    The bill before this committee (H.R. 817), denominated the ``Animal 
Fighting Prohibition Enforcement Act of 2005'', would be, if enacted, 
the successor to provisions of the Animal Welfare Act (``the Act''). 
The current provisions of the Act, enacted into law as a result of 
language which was inserted into the 2002 Farm Bill without ever 
receiving a Congressional mark-up in either the House or Senate 
Agriculture Committee, make it a misdemeanor for a person to, among 
other things, transport game fowl in interstate or foreign commerce for 
the purposes of exhibiting game fowl in a fighting venture.\1\
---------------------------------------------------------------------------
    \1\ These prohibitions apply even if the fighting venture takes 
place in states and foreign countries where such activities are 
perfectly legal. The significance of this fact will be discussed below.
---------------------------------------------------------------------------
    The principal supporter of the gamefowl provisions of the Act was 
the Humane Society of the United States (``HSUS''). The HSUS and a 
variety of other animal rights activists and groups, including some 
which are considered domestic terrorist organizations, have pressed for 
these prohibitions on philosophical grounds. These philosophical 
grounds include a shared belief that a wide variety of human uses of 
animals should be prohibited such as, among other things, hunting, 
fishing, trapping, rodeos, horse racing, and even the raising of 
animals for food and clothing purposes. These groups, either directly 
or through other organizations, have been successful in getting many 
state legislatures to enact prohibitions on some of these activities, 
but have been unsuccessful in getting the legislatures of other states 
to go along (e.g., Louisiana and New Mexico). It was for this reasons 
that the HSUS and other animal rights activists turned to Congress to 
get it to impose their views on those states in which they failed to 
succeed.
    The animal rights activists succeeded in getting the federal 
government to insert itself into what is essential a state law 
enforcement issue (a matter that I will discuss in more detail below) 
to a degree in the 2002 Farm Bill by inserting language which was not 
debated and explored in the appropriate committees. They enlisted the 
help of other groups, including commercial agriculture interests and 
regulators, by convincing them that gamefowl activities posed threats 
to other commercial bird industries \2\ and that those threats could 
effectively be nullified by prohibitions of the type found in the Farm 
Bill amendments and in H.R. 817. However, if one cuts past the rhetoric 
and self-serving rationales offered by those pressing Congress for 
passage of the (now-enacted) gamefowl provisions of the Animal Welfare 
Act and reviews the legislative history underlying the 2002 Farm Bill 
amendments, the purpose of these amendments was to assist states 
prohibiting gamefowl activities in enforcing their domestic laws at the 
expense of other states.\3\ In other words, Congress has enacted a 
statute which supports the economic policy decisions of some states at 
the expense of those states who have made a different economic policy 
choice. H.R. 817 would further this policy which UGBA believes, with 
substantial reason, to be constitutionally prohibited, inconsistent 
with the principles of federalism, unnecessarily intrusive on the 
ordered liberty of individual citizens, and even counterproductive to 
some of the stated goals of the legislation. It does this by increasing 
the penalties associated with gamefowl activities and imposing thereby 
more strict limitations.
---------------------------------------------------------------------------
    \2\ Note that I use the term ``other commercial bird industries'' 
in this discussion. The HSUS and other institutional supporters of the 
original Farm Bill amendments and H.R. 817 treat the gamefowl industry 
as being something other than a commercial industry when it suits them 
to create the impression that gamefowl activities and other related 
activities adversely affect legitimate commercial activities. However, 
while many involved in the gamefowl universe do not pursue these 
activities as a commercial venture (but as a hobby, a way of life, or a 
culturally bound pursuit), others do so as a commercial activity in 
whole or in part, an activity as deserving of protection and 
recognition as any other commercial bird activity.
    \3\ That this is the actual purpose of H.R. 817 as well as the Farm 
Bill amendments is reinforced by the fact that the title given to H.R. 
817 is the Animal Fighting Prohibition Enforcement Act. Gamefowl 
fighting is not prohibited by either the Farm Bill amendments nor H.R. 
817. The prohibitions were enacted by individual states within their 
borders. Such states could not constitutionally extend such bans beyond 
their borders. What H.R. 817, and the Farm Bill amendments before H.R. 
817, did was to make it easier for those states that did enact bans to 
enforce their domestic laws by imposing the will of those states onto 
other states with the complicity of the United States.
---------------------------------------------------------------------------
                  iii. h.r. 817 should not be enacted
A. PRINCIPLES OF FEDERALISM AND COMITY PROHIBIT SUCH ENACTMENTS
    The Federal Constitution is built on the principle of federalism. 
As the United States Supreme Court has noted, each state was from the 
beginning, and is today, a separate sovereign which retains all the 
aspects of sovereignty except those surrendered in the Constitution. 
Some prohibitions on invading that sovereignty are expressly stated in 
the Constitution, such as the language of the 9th and 10th Amendments 
such as, among other things, the immunity of states from suit in 
federal courts. Others are inherent in the structure and the history of 
the document itself. Some grants of federal authority in the 
Constitution, such as the Commerce Clause of Article I, Sec. 8, have 
allowed certain inroads into state sovereignty and, indeed, have been 
held in the past to grant extraordinary regulatory power over the 
economic lives of the states, the courts have, in the recent past, 
began to narrow that authority, bringing it closer to the historical 
bounds it was to be confined to by the framers and ratifiers of the 
Constitution. Even where the power of the United States extends over 
the states, the courts have held that such power should not be 
exercised lightly or without due deference to the rights of states to 
make their own decisions within their own borders.
    Among the decisions that remain in the hands of the states are 
those decisions going to the functions of the states and the economic 
and social policy choices that will affect their states. In other 
words, states are entitled to choose what economic and social 
activities they will follow within their borders, decisions that cannot 
be dictated by the United States absent a constitutional amendment. In 
many areas, the United States has been allowed to influence the policy 
choices of states by offering them incentives (such as block grants 
with conditions attached which can be entered into voluntarily), but 
not to dictate directly.
    Very clearly, the framers and ratifiers of the Constitution had no 
intention of allowing some states to impose their wills and legal and 
policy choices on other states. It was for fear that other states would 
attempt to do so that constitutional provisions such as the Full Faith 
and Credit clause exist. Indeed, it was the fear of states imposing 
their economic policy choices on other states that prompted the framers 
and ratifiers to include the Commerce Clause in the Constitution. It 
was there to prevent states from engaging in trade wars, imposing 
tariffs on other states to strong arm them into adopting policies 
desired by the first state, and the like. It would be ironic indeed if 
states were able to do indirectly, through federal legislation, what 
they clearly cannot do directly, and yet this is exactly what H.R. 817 
seeks to do and what the Farm Bill Amendments did.\4\
---------------------------------------------------------------------------
    \4\ Some may point to litigation that was brought in the United 
States District Court in Louisiana as proof that the Farm Bill 
Amendments were constitutional and so, therefore, must be the 
provisions of H.R. 817. They should not take comfort in this fact. The 
Louisiana case was a single case bought in a single District Court and 
is binding only in that district. It was not appealed. However, there 
were a number of issues that were not raised in that case which will 
certainly be raised in future litigation either in the same District 
with different parties or in other Districts. Those questions going to 
the constitutionality of the existing law and H.R. 817, if enacted, may 
well cause a different result. Further, courts of appeal considering 
these questions may well come to a different result. In other words, a 
final decision regarding the constitutionality of the Farm Bill 
Amendments and H.R. 817 has not been rendered. Any number of persons 
have pointed to cases that they felt answered a question in the way 
they wanted only to have the rug pulled from under them in later cases.
---------------------------------------------------------------------------
    It is my considered opinion that the Farm Bill Amendments are 
unconstitutional, and will ultimately be found to be so, as would be 
the provisions of H.R. 817, if it is enacted. However, even were this 
not so, Congress should be very reluctant to act, given the 
constitutional principles of federalism and comity, in such a way as to 
allow the policy preferences of any number of states to be imposed on 
states of a different view through federal legislation. States which 
allow gamefowl activities derive benefits from doing so. For example, 
they derive revenue from such activities, whether they are direct 
gamefowl activities or indirectly related activities such as veterinary 
services, feed production and manufacture and the like. Likewise, they 
derive veterinary and public health and safety benefits by making sure 
that gamefowl and related activities are conducted in the open where 
they are subject to regulation, inspection, and oversight.\5\
---------------------------------------------------------------------------
    \5\ As will be discussed in more detail below, attempts to ban some 
activities have the effect of driving them underground, where they can 
no longer be effectively monitored and controlled by regulatory 
authorities. Most persons, including UGBA members, are law-abiding and 
would abide by legal limitations amounting to a ban. However, there 
will always be those who will not. It should be remembered that many 
gamefowl activities, as well as many other activities, are culturally 
driven and tend to continue to take place underground if the law seeks 
to ban them. When this happens, the mechanisms that ensure public and 
veterinary health and safety cannot do their jobs.
---------------------------------------------------------------------------
    Congress should be reluctant to start down a path in which it 
assists those states having one policy preference over the interests of 
those states who do not share the same policy views. It is not hard to 
imagine that, should rodeos become the next target, that states who 
accept animal rights activists' views that rodeos are as bad as 
gamefowl activities will seek to impose similar limitations on the 
industries which can be said to support rodeos. Likewise it is not 
difficult to envision states that oppose gaming or gambling from trying 
to impose limitations on their residents traveling to other states to 
gamble, or from prohibiting slot machines from being shipped in 
interstate commerce to states in which gaming is legal, all to enforce 
their policy preferences on other states.
B. H.R. 817 VIOLATES THE CONSTITUTIONAL RIGHTS OF INDIVIDUAL CITIZENS 
        AND RESIDENTS
    Individual citizens and residents of the United States have liberty 
interests at stake here as well.
    For example, there is a constitutionally recognized right to travel 
in the United States which includes the right to travel for economic 
reasons which cannot be inappropriately burdened by the states or the 
federal government. For this reason, it has been held to be 
unconstitutional for a state to impose time-bound residency 
requirements for professional licensure in a state. The same principles 
that guide existing case law in this area would deny government the 
right to prohibit the regulated public from taking or sending the stock 
or tools of their business, trade or their hobby or sport in interstate 
travel from a place in which the use, possession, or ownership of the 
stock or tool was lawful to a place in which the activity using such 
stock or tool is lawful. Again, by analogy, imagine a law which 
prohibited shipping a gaming machine from a place in which its 
possession or manufacture was legal across state lines to a place which 
its possession and/or use is lawful.\6\ This is precisely what H.R. 817 
purports to do. It is my professional and personal opinion that H.R. 
817, if enacted, would unconstitutionally interfere with the 
constitutional right to travel of UGBA members and others.
---------------------------------------------------------------------------
    \6\ Similarly, imagine a law which prohibits persons from traveling 
from a state in which gaming or gamefowl activities are not lawful to 
one in which one or both are legal for the purposes of engaging in the 
gaming or gamefowl activities. A more obvious constitutional violation 
cannot be imagined. A law prohibiting individuals from carrying tools 
or possessions necessary for the enjoyment of gaming or gamefowl 
activities to a state in which such activities are allowed is scarcely 
less obviously unconstitutional. It cannot be overlooked here that the 
animal right organizations and activists supporting this legislation 
have as a stated goal the criminalization of other lawful activities 
involving interaction with animals such as hunting, fishing, trapping, 
rodeos and horse racing. Wayne Pacelle, Chief Executive Officer of the 
Humane Society of the United States, has made it clear that HSUS's 
``goal is to get sport hunting in the same category as cockfighting and 
dogfighting. Our opponents say that hunting is a tradition. We say 
traditions can change.'' (Bozeman Daily Chronicle, Oct. 8, 1991). It is 
clear that if successful here, HSUS will attempt to obtain similar laws 
as to these other targeted activities.
---------------------------------------------------------------------------
    Similarly, H.R. 817 imposes a first amendment burden on individuals 
which cannot be sustained. While commercial speech can be subjected to 
somewhat more stringent regulations that other types of speech, the 
power of the government to prohibit even commercial speech is limited. 
Certain time, place, and manner restrictions can be placed, but the 
limitations imposed by H.R. 817 go beyond any currently allowed 
restrictions on commercial speech. Indeed, it infringes not only on the 
rights of the speaker by prohibiting him or her from advertising 
activities which are legal in the states in which they are carried out 
in states in which such activities would be illegal (again, imagine Las 
Vegas from being prohibited from advertising casinos in states in which 
casino gambling is not permitted), but also the right of citizens to 
receive such information. Furthermore, the way H.R. 817 is drafted, 
persons could be held to violate the law if they simply cite places 
where such activities are permitted in the context of an article 
arguing that such activities should not be banned anywhere. Congress 
should be leery of pushing such boundaries.
    These are not the only constitutional problems I see in H.R. 817, 
but they serve as a significant example of the problems within H.R. 
817.\7\
---------------------------------------------------------------------------
    \7\ Although it is not my purpose in this testimony to address 
every problem that H.R. 817 presents, but merely to focus on legal 
issues, I nevertheless stop here to note that H.R. 817, and its 
predecessor, the Farm Bill amendments, are utterly insensitive to the 
cultural impacts of its provisions. Gamefowl activities have been 
historically a part of the social fabric of many societies and 
cultures. The United States is not unique in this regard. Not only will 
H.R. 817 have a substantial impact on the economics of those involved 
directly and indirectly in the gamefowl industry, but also will have 
social and even religious impacts on them. I find it ironic that 
Congress has imposed a requirement of sensitivity to such matters in 
federal statutes such as the National Environmental Policy Act 
(``NEPA''), but refuses itself to take such considerations into account 
in an area which is primarily philosophically driven. Legitimate public 
policy considerations, such as animal health, can be readily and easily 
dealt with as we do in every other activity involving animals, without 
decimating an activity which is a way of life for many.
---------------------------------------------------------------------------
C. ANIMAL AND PUBLIC HEALTH CONCERNS WILL BE DISSERVED BY H.R. 817
    Animal and public health issues have been cited as reasons why H.R. 
817 should be enacted. I respectfully submit that animal and public 
health would be adversely affected by H.R. 817. The reasons for this 
are fairly clear.
    Prior to becoming an attorney, I was a registered nurse for nearly 
20 years. I am therefore familiar with the principles of epidemiology 
and public health. Many of these principles are as applicable to animal 
health as to human health except that individual humans can report 
their illnesses and possible illnesses directly and a variety of 
mechanisms exist to ensure that important public health information is 
gathered and transmitted to appropriate officials. Animals, however, 
are dependant on humans to recognize and report potential health 
problems and to ensure that such mechanisms that exist to catch and 
treat animal disease are in play. Voluntary compliance is important 
both in human and animal health regimes. Indeed, a primary purpose of 
the UGBA is to promote animal health as illustrated by my above 
description of the organization.
    It has been my experience, both as an RN and as an attorney 
(including my time at the United States Department of Justice) that 
banning activities such as gamefowl activities does not end the 
activity, but merely drives it underground. Once it is driven 
underground, it is difficult, if not impossible, to ensure that the 
potential health problems created by the activity will be timely 
discovered and addressed.
    This is not to suggest that no ban of any kind on any activity 
should ever be enacted. I do suggest that every situation be separately 
evaluated to decide whether more harm than good will result from the 
ban. Likewise, I do not suggest that the gamefowl breeders who are 
members of the UGBA would intentionally or otherwise violate the 
provisions of H.R. 817. Most people are law-abiding, at least when they 
know and can understand the law (which is by no means a given). 
However, as my experience shows, there will always be some who, from 
conviction or for economic, cultural, and other reasons, will simply 
continue the banned activity underground. Indeed, where activities are 
heavily bound with culture (as is the case here), a defiance of the 
ban, whether de facto or de jure will be a virtual given.
    When this happens, all of the potential adverse effects of the 
banned activity are likely to emerge. The regulatory, legal, social, 
and other oversight mechanisms, both formal and informal, either cannot 
function to catch problems before they become major, or can only do so 
with great difficulty and inefficiency. As a result, the very 
consequences the ban seeks to avoid emerge. In this case, some may 
suggest that H.R. 817 is not a ban and that, therefore, what I have 
said here is irrelevant. However, a review of H.R. 817 demonstrates 
that it is so onerous and so pervasive that it amounts to a de facto 
ban. The solution here in not to place onerous limitations on the 
activities in question, but to bring them into the same regulatory 
universe that all other animal related industries inhabit, such as 
regular inspections, mandatory vaccinations, and the like.
    Further, to suggest that gamefowl breeding and related activities 
pose a unique threat that must be met with the stringent limitations 
amounting to ban is disingenuous at best. The birds involved in 
gamefowl activities are, to the best of my knowledge and understanding, 
no more prone to Exotic Newcastle disease, avian flu viruses, or 
arboviruses than any other commercially raised fowl and are no less 
subject to disease control measures than any other fowl. If these 
things are true, it is clear that the stated health concerns are more 
motivated by a dislike for the gamefowl industry or for fear of 
political repercussions than by a fear of disease itself. For those who 
are motivated by a genuine concern for animal and public health safety 
issues, I respectfully submit that their concerns can be met in the 
same fashion that public and animal health and safety concerns are met 
when other fowl are at issue that by enacting H.R. 817. Indeed, UGBA 
members are as concerned as anyone about animal and human health 
issues. Their livelihoods, lifestyles, and culture are as threatened as 
anyone elses by an outbreak of avian flu virus, Exotic Newcastle 
disease or any other disease condition involving fowl.
    The decisions about whether an activity such as gamefowl breeding 
and related activities should be allowed and under what circumstances 
are best left to the states who have the best idea what works for their 
state and their citizens and who can ensure that the activities are 
carried out in a safe and appropriate manner. The legislative authority 
of the United States should not be used by some states to impose their 
policy views on other states simply because it would make enforcement 
of their own policy preferences within the borders of their own states 
simpler.
D. H.R.817 INAPPROPRIATELY DIVERTS FEDERAL RESOURCES
    H.R. 817 diverts federal resources to effectuate the policy choices 
of individual states. Given the important matters that face the United 
States today, ranging from homeland security to immigration and serious 
crime, it seems inappropriate to apply federal funds and law 
enforcement personnel and resources to effectuate a policy adopted by 
individual states who presumably believe that the policy deserves the 
dedication of law enforcement resources. It is not unreasonable to 
suggest that a state should not adopt a policy that it is not willing 
to dedicate its own resources to strenuously enforce.
                             iv. conclusion
    For all of the foregoing reasons, we respectfully ask for your 
opposition to HR 817.

    Mr. Coble. Thank you, Mr. Pollot.
    Corporal Hunt, before we hear from you, Mr. Scott and I are 
pleased to welcome the distinguished gentlemen from California, 
Wisconsin and Massachusetts, Lungren, Green and Delahunt, 
respectively.
    Corporal Hunt.

 TESTIMONY OF DAVID R. HUNT, DEPUTY, FRANKLIN COUNTY SHERIFF'S 
                      OFFICE, COLUMBUS, OH

    Mr. Hunt. Thank you, Mr. Chairman, Members of the 
Committee. As mentioned, my name is Corporal David Hunt, and 
I'm a Deputy with the Franklin County Sheriff's Office in 
Columbus, Ohio. I'm in my 25th year with the Sheriff's Office, 
the past 14 years of which assigned to the Special 
Investigations Unit conducting vice and narcotics 
investigations. I have been investigating illegal dogfighting 
since February of 2002.
    I am here today to speak in support of H.R. 817, the 
``Animal Fighting Prohibition Enforcement Act of 2005.'' Having 
worked illegal animal fighting investigations for the past 4 
years, I continually see the need to make this activity a 
felony offense at the Federal level. Dogfighters often travel 
across State lines to engage in large-scale dogfights, where 
the purses are in the tens of thousands of dollars. Other 
peripheral criminal activity such as drug trafficking, gambling 
and illegal firearms possession is typically associated with 
dogfighting.
    In January 2003, my agency executed a search warrant on 
such an event in progress, arresting 40 individuals. Three 
fights were scheduled that evening with people attending from 
New York, Washington, D.C., Virginia and Alabama. Two of the 
dogs slated to fight that night were from Buffalo, New York, 
with another dog coming from Richmond, Virginia. Over $30,000 
in cash was seized at the fight, as each fight had a $10,000 
purse. Additional cash from gambling, drugs and a .50 caliber 
handgun were also confiscated.
    In July of 2003, a patrol deputy with my agency stopped a 
vehicle from South Carolina that was found to be transporting 9 
scarred pit bull dogs. Subsequent investigation revealed that 
this subject was a canine courier service utilized by 
dogfighters for transporting fighting dogs for sale, trade and 
breeding. One of the dogs was destined to a convicted 
dogfighter in Columbus. Interview of the driver revealed that 
he had picked up and dropped off fighting dogs in Georgia, 
Alabama, Louisiana, Missouri and Illinois prior to being 
stopped in Ohio. Under Ohio statutes, no criminal charges could 
be filed.
    In October 2003, a dogfighter from Williamson, West 
Virginia brought a pit bull to Columbus to deliver to a 
confidential informant working for me. This meeting, which was 
audio and videotaped documented the dogfighter talking about 
fighting dogs, breeding dogs for fighting, past dogfights, and 
even inviting the CI to attend a match in West Virginia.
    This case was presented to the U.S. Department of 
Agriculture, Office of the Inspector General, who agreed to 
adopt it for Federal prosecution. Upon meeting with an 
Assistant U.S. Attorney for the Southern District of Ohio, the 
USDA agent and myself were advised that the U.S. Attorney's 
Office would not accept this case as it was a Federal 
misdemeanor. We were further advised that the only Federal 
misdemeanor that would be prosecuted I the Southern District of 
Ohio was interference with a flight crew.
    The investigation was then referred to the Franklin County 
Prosecutor's Office, who agreed to prosecute the West Virginia 
dogfighter. This subject eventually pled guilty to State 
charges and cooperated on other dogfighting investigations. 
Many underground fighting publications chronicle fights that 
occur across the United States, and are typically attended by 
fighters from other States. Many dogfighters in Central Ohio 
routinely travel to Louisiana to purchase desired fighting dog 
bloodlines. I currently have investigations that reach into 
States that border Ohio, and have to rely on the appropriate 
local law enforcement agency for assistance. Most law 
enforcement officers are unaware or uneducated on dogfighting. 
Thus, many of these investigations fail to come to fruition.
    My office has an excellent relationship with the USDA 
Office of Inspector General, as well as the Federal Bureau of 
Investigation. Making this law a Federal felony will 
significantly assist local law enforcement. Teaming up with 
Federal law enforcement will aid in the pursuit of those 
individuals who routinely cross State lines to engage in this 
vicious illegal activity.
    Thank you very much.
    [The prepared statement of Mr. Hunt follows:]
                  Prepared Statement of David R. Hunt

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. Thank you, Mr. Hunt.
    Dr. Bradley.

  TESTIMONY OF FRANCINE A. BRADLEY, PhD, DEPARTMENT OF ANIMAL 
     SCIENCE, UNIVERSITY OF CALIFORNIA AT DAVIS, DAVIS, CA

    Dr. Bradley. Mr. Chairman, before I begin, I ask your 
permission that my full statement be submitted for the record.
    Mr. Coble. Without objection, it will be done.
    Dr. Bradley. Thank you. Chairman Coble, Ranking Member 
Scott, Members of the Subcommittee, my name is Dr. Francine 
Bradley. I'm the Extension Poultry Specialist at the University 
of California at Davis. While the university has not taken a 
position on H.R. 817, I am appearing on my own behalf as a 
poultry scientist with intimate knowledge of the gamefowl 
community. This is my 25th year as a poultry scientist with the 
university. I work with poultry producers of every scale and 
direct the statewide 4-H poultry program. I serve as Director 
of the Pacific Egg and Poultry Association, a commercial 
poultry trade association, a Director of the Pacific Poultry 
Breeders Association, and I'm the Treasurer of the World's 
Poultry Science Association.
    The term ``game fowl'' refers to breeds of chickens that 
were historically bred for the purpose of cockfighting or 
directly developed from that stock. They include the Old 
English Game, the Modern Games, the Aseels and others. Game 
fowl breeds are popular with poultry fanciers, that is, those 
people who raise birds for show. Game fowl were used to create 
one of today's most significant commercial breeds, the Cornish. 
Both male and female game fowl will fight, as will any chicken 
or chicken-like bird. Game fowl are popular exhibition breeds.
    The enforcement of H.R. 817, if passed, would fall to 
officers of the law, with the assistance of local animal 
control authorities. The same bird that can be used for an 
organized cockfight can also be exhibited at a poultry show. 
Law enforcement officers are neither poultry scientists nor 
poultry judges. They cannot distinguish between a bird that 
will be fought and one that will be shown. No one can. Animal 
control officers are well trained in the area of household 
pets. They receive no mandatory training from qualified poultry 
scientists about the identification or management of poultry. 
In fact, there are animal control officers who particularly 
dislike chickens and the people who keep them. An additional 
problem that I have witnessed over and over again is that some 
misinformed individuals automatically assume that chickens 
owned by a Hispanic, a Samoan, or a Filipino must be 
cockfighting birds. While it is illegal to fight chickens in 
most of the United States, it is not illegal to own them.
    In 2003, the game fowl breeders in California approached 
the University of California and the California Department of 
Food and Ag to obtain a documentation process for the disease 
prevention efforts many of them were already taking. They also 
wanted to encourage other game fowl breeders to participate in 
such programs. At the direction of the State Veterinarian, I 
worked with CDFA veterinary staff to develop the Game Fowl 
Health Assurance, GFHA, program. Since September of 2003, 
thousands of game fowl cultures have been tested by the 
California Animal Health and Food Safety Lab. To date, no 
sample from, nor whole bird submission of game fowl, has tested 
positive for any catastrophic or reportable poultry disease.
    The game fowl owners in this voluntary program attend 
multiple educational sessions. They receive training in 
biosecurity, culturing their birds, using the diagnostic lab, 
and vaccination. In subsequent years they attend continuing 
education classes and maintain their flock sampling through 
culture and whole bird submission.
    For many, this is the first Government or university 
program they've ever participated in, and as each new game fowl 
breeder starts the program, the word spreads and interest 
grows. Passage of H.R. 817 would have disastrous implications 
for those of us in the science and veterinary communities. If 
owning game fowl can be perceived as violation of H.R. 817, 
game fowl breeders will not self-identify. They'll not come 
forward for educational classes, and most importantly, they 
won't use the Federal or State disease hotlines, and they won't 
be submitting their birds to their local diagnostic labs.
    Cockfighting has been illegal in most of the United States 
for decades. It's been illegal in foreign countries in many 
parts of the world for centuries. Yet, this activity has not 
been legislated out of existence. The best way to keep our 
Nation's birds healthy is to have access to and communication 
with all bird owners. When the GFHA program was being 
developed, my veterinary advisors told me that we should test 
the game fowl for Exotic Newcastle Disease. The fame fowl 
breeders told us they wanted the birds tested for avian 
influenza. They said--and this was in 2003--that they though 
avian influenza was going to become more important than Exotic 
Newcastle Disease.
    Your Judiciary Subcommittee has ``Homeland Security'' in 
its title. Homeland Security is conducting avian influenza 
sessions across the Nation. In April we had one such session in 
the Central Valley of California. The game fowl community was 
represented. One game fowl breeder took off from work and made 
a 700-mile round trip to attend. Game fowl breeders are 
actively participating in disease prevention and Homeland 
Security programs.
    Passage of H.R. 817 will drive the game fowl community into 
dark corners. As scientists, educators and veterinary 
professionals, my colleagues and I will have difficulty working 
with these individuals, who will now be in fear of harsh fines 
and prison time.
    Disease organisms do not distinguish between types of 
chickens. Avian influenza is an equal opportunity disease. All 
bird owners must be educated and protect their birds. Every 
living creature has value. A single game fowl specimen may be 
worth $1,000 or more. Many game fowl breeders have birds from 
genetic strains that have been maintained by their families for 
generations. To them the birds are priceless. To suggest that 
game fowl owners care less for the health of their animals than 
do other bird owners is preposterous. To promote the health of 
the Nation's poultry and to allow our effective educational 
programs to continue, I respectfully ask you to oppose H.R. 
817.
    Thank you.
    [The prepared statement of Dr. Bradley follows:]
               Prepared Statement of Francine A. Bradley
                            i. introduction
    Chairman Coble, Ranking Member Scott, members of the Subcommittee, 
my name is Dr. Francine Bradley. I am the Extension Poultry Specialist 
with the University of California at Davis. While the University of 
California has not taken a position on H.R. 817, I am appearing on 
behalf of myself, as a poultry scientist with intimate knowledge of the 
game fowl community. This is my 25th year as a poultry scientist with 
the University of California. I work with poultry producers of every 
scale and direct the statewide 4-H poultry program. I serve as a 
Director of the Pacific Egg and Poultry Association (a commercial 
poultry trade association), a Director of the Pacific Poultry Breeders' 
Association (an association of poultry fanciers), and the Treasurer of 
the World's Poultry Science Association (an international body of 
poultry scientists).
                             ii. background
    The term game fowl refers to those breeds of chickens (both large 
and bantam) that were historically bred for the purpose of cock 
fighting or directly developed from that stock. Those breeds include 
the Old English Games, the Modern Games, Aseels, and others. Game fowl 
breeds are popular with poultry fanciers, that is, those individuals 
who raise birds for exhibition purposes. Game fowl were used to create 
one of today's most commercially significant chicken breeds, the 
Cornish. Both male and female game fowl will fight, as will any chicken 
or chicken-like bird, and they are also exhibited.
                 iii. the dangers in enacting h.r. 817
    The enforcement of H.R. 817, if passed, would fall to officers of 
the law, with the assistance of local animal control authorities. As I 
mentioned in the previous section, the same bird that be used for 
organized cock fighting, could also be exhibited at a poultry show. Law 
enforcement officers are neither poultry scientists nor poultry judges. 
How will they distinguish between a bird that will be fought and one 
that will be shown? They cannot; no one can do this. Animal control 
officers are well trained in the areas of cats, dogs, and other small 
pets. They receive no mandatory training from qualified poultry 
scientists about the identification or management of poultry. In fact, 
there are animal control officers who particularly dislike chickens and 
the people who keep them. An additional problem that I have witnessed 
over and over involves the ethnicity of the poultry owner. There are 
some who automatically assume that chickens plus an owner who is 
Hispanic, Samoan, or Filipino equals cock fighter. While it is illegal 
to fight chickens in most of the United States, it is not illegal to 
own them.
    In 2003, game fowl breeders in California approached the University 
of California and the California Department of Food and Agriculture 
(CDFA) to obtain a documentation process for the disease prevention 
efforts many of them were already taking. In addition, they wanted to 
encourage other game fowl breeders to participate in health maintenance 
programs. At the direction of our California State Veterinarian, I 
worked with CDFA veterinary staff to develop the Game Fowl Health 
Assurance (GFHA) Program. Since September of 2003, thousands of game 
fowl cultures have been tested by the California Animal Health and Food 
Safety (CAHFS) laboratories. To date no sample from, nor whole game 
fowl, has tested positive for any reportable or catastrophic poultry 
disease.
    The game fowl owners in this voluntary program attend multiple 
educational sessions during their first year. They receive training in 
biosecurity, culturing their birds, using the diagnostic laboratories, 
and vaccination methods. As they move into their second and subsequent 
years of certification, the game fowl breeders attend continuing 
education classes and maintain their flock sampling through culture and 
whole bird submissions.
    For many in the GFHA Program, this is the first government or 
university sanctioned activity in which they have participated. As each 
new game fowl breeder starts the program, the word spreads and interest 
grows. Passage of H.R. 817 would have disastrous implications for those 
in the science and veterinary communities. If owning game fowl can be 
perceived as violation of H.R. 817, game fowl breeders will not self 
identify. They will not come forward for educational classes. Most 
importantly, they will not use government services such as the CDFA or 
United States Department of Agriculture (USDA) disease hot lines. They 
will not be submitting sick birds to the diagnostic laboratories in 
their states.
   iv. h.r. 817 does not promote better biosecurity for the nation's 
                                poultry
    Cock fighting has been illegal in most of the United States for 
decades. It has been illegal in some foreign countries for centuries. 
Yet, this sport has not been legislated out of existence, neither here 
nor around the world.
    The best way to keep all the nation's birds healthy is to have 
access to and communication with all bird owners. When the GFHA Program 
was being developed, my veterinary advisers at CDFA suggested that the 
game fowl only be tested for Exotic Newcastle Disease. The game fowl 
breeders told us they wanted their birds to be tested for Avian 
Influenza also. They said, and this was in 2003, that their feeling was 
that Avian Influenza would turn out to be more of a problem than Exotic 
Newcastle Disease!
    Your Judiciary Subcommittee has Homeland Security in its title. 
Homeland Security is conducting sessions dealing with Avian Influenza 
across the nation. In late April, one such Avian Influenza Workshop was 
held in the Central Valley of California. The game fowl community was 
represented. One game fowl breeder took off from work and made a 700 
mile round trip to attend. Game fowl breeders are actively 
participating in disease prevention and Homeland Security programs.
    Passage of H.R. 817 will drive the game fowl community into dark 
corners. As scientists, educators, and veterinary professionals, my 
colleagues and I will have difficulty working with these individuals 
who will now be in fear of harsh fines and prison time.
    Disease organisms do not distinguish between a commercial meat bird 
and a bantam chicken. Avian Influenza is an equal opportunity disease. 
All bird owners must be educated and protect their birds. Every living 
creature has value. The feed store chick purchased for fifty cents may 
be a child's favorite pet. Leghorn hens may be the basis for a family 
business and livelihood. Poultry fanciers have as much passion for 
their chickens as others do for their dogs. A single game fowl specimen 
may be worth one thousand dollars or more. Many game fowl breeders have 
birds from genetic strains that have been maintained by their families 
for generations. To them the birds are priceless. To suggest that game 
fowl owners care less for the health of their animals than do other 
bird owners is preposterous.
    To promote the health of the nation's poultry and to allow our 
effective educational programs to continue, I respectfully ask you to 
oppose H.R. 817.

    Mr. Coble. Thank you, Doctor. Thank you all for your 
testimony. We impose the 5-minute rule against us as well. 
We're not exempted from the red light, so if you all could keep 
your questions tersely, we would appreciate that.
    Mr. Pacelle, given the fact that there's already criminal 
penalties in Federal law in title 7 for moving animals in 
interstate or foreign commerce for the purposes of animal 
fighting, why do you feel this legislation is necessary?
    Mr. Pacelle. Thank you, Mr. Chairman. I believe it's 
necessary for a few reasons. One is that there still remains a 
thriving underground dogfighting, cockfighting, and hog-
dogfighting set of industries. There are three above-ground 
cockfighting magazines here. You can see in the pages of these 
magazines, which you can subscribe to, the sale of fighting 
birds is advertised, and it's obviously going across State 
lines. Here we have just the direct flouting of Federal law 
here, and we have seen in so many cases with the huge amount of 
money to be won for purses and in side bets at cockfights and 
dogfights, these folks are willing to deal with a $5,000 fine 
or a $1,000 fine routinely.
    Mr. Coble. Mr. Pacelle, what's the name of that 
publication, and where is it published, if you know?
    Mr. Pacelle. Yes, there are three of them. This is The 
Feathered Warrior, and then this is The Gamecock, and the third 
is called Grit and Steel. Two of them are published in Arkansas 
and one is published in South Carolina.
    Mr. Coble. I thank you.
    Mr. Pollot, you contend that the enactment of this bill 
would result in the forcing of the views of supporting States 
upon the nonsupporting States. Now, in this contention, Mr. 
Pollot, are you suggesting--strike that. Are you saying that it 
is your belief that this activity does not affect interstate or 
foreign commerce?
    Mr. Pollot. No, Your Honor, I'm not suggesting that. There 
are--excuse me, Your Honor, I'm too used to talking to judges.
    Mr. Coble. That's all right.
    Mr. Pollot. Mr. Chairman, no.
    Mr. Coble. You just promoted me.
    Mr. Pollot. I'm not suggesting that. I mean, clearly, they 
are interstate commerce, but even the Interstate Commerce 
Clause has limitations. Federalism is in fact one of those 
limitations. I note that during the recent Senate confirmation 
hearings on two Supreme Court Justices, Members of this 
Committee expressed concern because they saw that courts are in 
fact narrowing to a degree the very broad Commerce Clause 
authority that some courts have given over the years. These 
questions that I raise are not questions that have been raised 
in either of the two pieces of existing litigation in this. 
There is a belief expressed by the Supreme Court that States 
are separate sovereigns, entitled to their own domestic laws, 
and there is no constitutional basis, I believe, for Congress 
to choose the policy for States that it likes, and thereby, 
enact a law that some--in effect, takes away the decisions of 
the sovereign State to decide what goes on within its own 
borders.
    Mr. Coble. I thank you, sir.
    Let me get back to you, Mr. Pacelle. I'll give you a chance 
to respond to that. I want to ask Corporal Hunt a question.
    Corporal Hunt, it is my firm belief that international drug 
traffickers and domestic drug traffickers, for that matter, 
contribute very generously to terrorism. With this in mind, in 
your experience, are the operators of these animal fighting 
events generally engaged in other types of criminal activity, 
and if so, what types?
    Mr. Hunt. Thank you, Mr. Chairman. Absolutely. Every 
dogfighting search warrant--and I can only address dogfighting. 
I've only done two cockfighting investigations in my career. 
But specifically articulating to dogfighting, every search 
warrant I have executed, I've recovered drugs at. Dogfighting 
appears to be quote, unquote ``sport'' of many drug 
traffickers. They have a lot of disposable income. There's also 
the machismo pride involved with it. The two really go hand in 
hand. So I would tend to agree with you on that.
    Mr. Coble. Could it in fact lead to terrorism too, perhaps?
    Dr. Bradley, let me--Mr. Pacelle, I can tell by his body 
language he wanted to be heard--I'll get to you subsequently, 
Doctor.
    But go ahead, Mr. Pacelle.
    Mr. Pacelle. Thank you, Mr. Chairman. I just want to say 
that the Federal law that has existed since 1976 and was 
upgraded in 2002, does not ban cockfighting or dogfighting in 
any State, it just bans the interstate transport and the 
foreign commerce in animals for fighting purposes. So in 
Louisiana, if Louisiana chooses to continue to allow 
cockfighting--and the Senate Ag Committee just passed a bill to 
make it a felony in that State, so I think it's just a matter 
of time--Louisiana can still stage cockfights legally under 
this law. It doesn't ban what's happening in a State, it simply 
bans the interstate transport of the animals. So Louisiana 
can't send birds to other States, and birds cannot come from 
other States and go into Louisiana.
    Mr. Coble. I thank you. My red light appears, Mr. Scott. 
I'll get you the next round, Dr. Bradley.
    Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Pacelle, is there anything in this bill that is legal 
now that would be illegal if the bill passes?
    Mr. Pacelle. Yes. The bill creates one new criminal 
activity, which is the interstate transport and foreign 
Commerce in cockfighting implements, which have no other known 
purpose but to be affixed to the birds' legs. So the knives and 
the gaffes which are attached with a little strap to the birds' 
legs, you could not use them in interstate or foreign commerce. 
And these magazines are full of ads for these cockfighting 
implements.
    Mr. Scott. The transport of the animal itself is already 
illegal, and the only thing that's changed is the penalty?
    Mr. Pacelle. That's correct.
    Mr. Scott. Mr. Pollot, if that's the case, why would it be 
unconstitutional to pass the bill? Are you assuming that the 
present law is unconstitutional?
    Mr. Pollot. Yes, Congressman and Mr. Chairman, I am. And I 
suspect there will be further litigation on that point. It kind 
of brings up the issue that in the written testimony Mr. 
Pacelle has pointed to two cases that I briefly referred to 
before as establishing that these bans are constitutional.
    However, first of all, one thing we know is that there is 
no such thing as black letter law. Reality is, for example, on 
the death penalty, the Supreme Court has been back and forth 
over that for many, many, many decades, and who knows what will 
happen? Secondly, these are two cases in two courts in the 
United States, and they are binding only in those courts. One 
of them was a takings case, which presumes the legality of the 
regulation and determines whether or not a fifth amendment 
taking has occurred. And thirdly, the cases that have been 
brought raise only certain issues, constitutional issues, not 
the constitutional issues I raise, and the one thing we can say 
for sure is that as general practice, courts do not answer 
questions that have not been asked.
    Mr. Scott. Well, one of your claims is that it restricts 
transportation. Leaving one State to do something that's legal 
in another State, would that be a violation of the 
Constitution?
    Mr. Pollot. It would be a violation of the individual's 
right. I think it has federalism implications. Let me be clear 
that there are absolute prohibitions in the Constitution like 
the ninth and tenth amendments on Federal action, but there are 
also policies in the Constitution that even where it is lawful 
for Congress to do something, Congress should be wary of doing 
so. But there are also individual liberties in the 
constitutional right to travel.
    Mr. Scott. Well, there's another bill that's gone through 
this Committee where you're trying to prohibit escorting or 
transporting a child from one State to another to avoid the 
local State abortion laws, doing something that's legal in the 
other State. Would that be unconstitutional under the same 
rationale?
    Mr. Pollot. Constitutional questions are often very fact 
specific. Something having to do with the transportation of a 
minor across State lines for immoral purposes is a far 
different question than----
    Mr. Scott. Wait a minute. Immoral? If it's legal in the 
other State, would that--how do you get immorality and----
    Mr. Pollot. Well, first of all, by taking a minor across 
the State line to do anything that would avoid medical 
liability, medical oversight laws, raises different questions, 
which I have not, obviously, had the time to analyze. I would 
say that I cannot venture a strong opinion on that unless I had 
the opportunity to sit down. But I don't think that my position 
here automatically means that some other law involving health 
and safety issues that have national importance beyond a policy 
like that involved in cockfighting, which by the way, I have to 
say the organization I'm representing has nothing to do with 
cockfighting. It's a gamefowl breeders association.
    Mr. Scott. What are game fowl?
    Mr. Pollot. A game fowl, as described by Dr. Bradley over 
here, I think that's a fair assumption, a fair definition of 
what game fowl are. They are not bred solely for fighting, 
despite what many people believe. I, myself, have sat in on a 
show.
    Mr. Scott. In fact, what else are they bred for?
    Mr. Pollot. For show. The word ``fancier'', as Dr. Bradley 
pointed out, refers to people who breed particular animals for 
show. I have three dogs, all of which are considered hunting 
breeds. I don't hunt with those breeds. I have two Westies and 
a Lab. My possession of them is no way an indication that I 
hunt with them. I happen to like those dogs.
    Mr. Scott. Mr. Pacelle, did you want to comment?
    Mr. Pacelle. Thank you. The idea that the United Gamefowl 
Breeders Association is not a pro-cockfighting organization is 
entirely absurd. UGBA formed in 1975 to fight the law that 
Congress passed in 1976 on cockfighting. Most of the leaders of 
the UGBA have been arrested for illegal cockfighting 
activities. In fact, the gentleman who was running the Del Rio 
pit, who I mentioned, he was a past president of the United 
Gamefowl Breeders Association, and his wife was the secretary 
of the organization. A gentleman in Ohio, in Vinton County, Red 
Johnson, was arrested for running an illegal cockfighting pit 
in Ohio. He was also a past president of the UGBA. This is a 
cockfighting organization through and through.
    Now, that's not to say that game fowl can have another 
purpose, but the people at the UGBA are not interested in 
shows, they're interested in cockfighting. We fight them at the 
State level. Dr. Bradley has appeared in many States opposing 
anti-cockfighting legislation. This whole kind of show of that 
these people are into game fowl for show purposes is a charade.
    Mr. Scott. Mr. Chairman, my time is up, but he did refer to 
Dr. Bradley by name and----
    Mr. Coble. Without objection.
    Mr. Scott. Thank you.
    Dr. Bradley. I just want to comment that the game fowl 
breeds are described in the American Poultry Association's 
American Standard of Perfection. The game fowl members of 
organized game fowl organizations do show their birds. Within 
the last month, I was at a show in Southern California, all 
game fowl breeds, and they were being judged by the President 
of the American Poultry Association.
    Mr. Coble. The gentleman's time has expired.
    The primary sponsor of the bill before us, the 
distinguished gentleman from Wisconsin, Mr. Green.
    Mr. Green. I thank the Chairman for yielding me time. Just 
something that I don't think we went through in the initial 
testimony, but it's important. The organizations that are 
endorsing this legislation include the U.S. Department of 
Agriculture, the National Chicken Council, the American 
Veterinary Medical Association, so as Wayne indicated, the 
support is pretty broad-based, and these are organizations that 
are among the most reputable organizations with respect to 
animal safety and health that we have in the Nation.
    A question for Mr. Pollot, just so I am clear as to what 
your position is, your organization's position on cockfighting. 
Obviously, we're talking here about the Federal legislation 
before us. Do you and your organization support cockfighting 
bans at the State level?
    Mr. Pollot. To the best of my knowledge, the UGBA has not 
advocated, publicly supported, or otherwise taken a position on 
cockfighting.
    Mr. Green. So they're neutral on the subject of 
cockfighting at the State level.
    Mr. Pollot. That is not why they exist. If you look at 
their by-laws----
    Mr. Green. I'm not asking why they exist. I'm asking 
whether they support cockfighting bans at the State level?
    Mr. Pollot. I imagine there are probably members of the 
UGBA who do and members who don't. To the best of my knowledge, 
they have not taken any kind of an official position on it, and 
if they have, I'm unaware of it, and I can't really speak for 
individual members.
    Mr. Pacelle. I'm sorry, but Mr. Pollot is just plain wrong, 
and is unfamiliar with what the UGBA is. I mean this is the 
group that we fight at the State level on cockfighting. They 
don't emerge on dogfighting issues, but at every anti-
cockfighting hearing, whenever a bill is advanced at the State 
level, it's the UGBA or its State affiliates, the Louisiana 
GBA, the Virginia GBA, all of those State affiliates, they're 
all cockfighters. That's not to say again that game fowl cannot 
be used for show purposes, just like pit bulls. You can use a 
pit bull and show a pit bull for show, or you can use a pit 
bull for a fight. But the fact that you could do that doesn't 
mean that these people are not involved in animal fighting, 
which is what they are.
    UGBA was formed to fight the Federal bill that former 
Representative and former Speaker Tom Foley introduced in 1975 
to ban the interstate transport of fighting animals.
    Mr. Green. I guess I bring it up, because, obviously, Mr. 
Pollot has been making legal arguments about federalism and 
constitutionality. What you're saying, Wayne, is that in your 
experience, while they may raise those arguments here at the 
hearing, as an organization they have been actively involved in 
the underlying substance. They are fighting cockfighting bans 
is what you're saying.
    Mr. Pacelle. Without any question, and we'd be happy to 
submit letters and other materials from the UGBA and the State 
GBAs to support this contention.
    Mr. Green. I would appreciate that.
    Yes, Mr. Pollot?
    Mr. Pollot. I imagine, I mean just as I belong to 
organizations that I have a difference of opinion on some 
matters than other members of my organization, I can join an 
organization for the primary purpose of the organization, and 
disagree with those members. I am more than a little bit 
concerned about an attack on the organization. I think the 
focus here ought to be on the merits of the----
    Mr. Green. I don't think I'm attacking the organization. 
I'm just trying to understand where the organization is coming 
from, because obviously the arguments that have been made have 
been arguments of federalism and constitutional arguments. That 
is obviously a different matter than the underlying subject of 
cockfighting here. And I think it is important that we do 
understand, as Members, the background, the context and the 
larger position that's held by the organizations that are 
coming before us.
    Mr. Pollot. Mr. Chairman and Congressman Green, first of 
all, Congressman Green, I was not suggesting that you were. I 
am suggesting, however, that Mr. Pacelle is using an ad hominem 
attack.
    Maybe it will help clarify my position somewhat. I think 
nobody who believes in the principles of federalism--and that 
includes the UGBA members--can disagree with the proposition 
that States have the right, as a matter of public policy, to 
decide whether to allow----
    Mr. Green. I don't think anybody here is doubting whether 
or not States have the right here. The question is whether 
organizations support--my time is running out.
    What I would like to get at real briefly--and, Mr. Pacelle, 
you can perhaps respond to this--we had testimony that somehow 
enforcing a Federal ban on animal fighting with interstate 
transportation related to animal fighting will hurt our ability 
to fight animal diseases. Perhaps as an organization somewhat 
concerned about animal health, you might be able to respond to 
that.
    Mr. Pacelle. Yes. I do want to say that--regarding the 
previous question--we are critical of the UGBA. We believe that 
the UGBA is an organized criminal association, to be quite 
honest with you. But on the animal health issues, it's quite 
plain that the National Chicken Council, which is not a group 
that the Humane Society is normally aligned with--this is the 
poultry producers of the United States--they support this 
legislation because they view cockfighting and the movement of 
birds across the country and across national boundaries as a 
threat. These birds are in underground commerce, and they're 
the birds that are not part of any regimented program. They're 
not part of any legitimate industry, and therefore, may spread 
diseases.
    I want to say just finally, Mr. Green, that in California, 
Exotic Newcastle Disease, which is a respiratory disease--it's 
a bird influenza--there was an outbreak in 2002, and it 
extended to 2003. The source of the disease is not clear. It is 
apparent that it came from Mexico, but it was the network of 
backyard cockfighting operations that spread the disease. The 
Federal Government spent $200 million trying to contain the 
disease and reimbursing owners of birds that were destroyed. 
Four million birds were destroyed.
    So you have the USDA----
    Mr. Coble. Mr. Pacelle, if you can wrap up, we're going to 
have a second round.
    Mr. Pacelle. Sure. I'm sorry. That's sufficient.
    Mr. Coble. We'll have a second round. And, Dr. Bradley, we 
have not intentionally ignored you, but you want to insert your 
oars into these waters now?
    Dr. Bradley. Yes, sir, I'd like to.
    Mr. Coble. If you can do that briefly, then I want to 
recognize Mr. Delahunt.
    Dr. Bradley. Thank you, Mr. Chairman. This issue of Exotic 
Newcastle Disease in Southern California and Congressman 
Green's reference to the USDA, there has been mention made of 
former Secretary Ann Veneman's comments, both in your talking 
points and written testimony. She misspoke in my opinion, and I 
wrote her an extensive letter on the point, by saying that they 
were implicated. Other people have taken this to mean that they 
were at fault. It is important to note in the Exotic Newcastle 
Disease outbreak of 2002, the very first isolation in 
California was in companion birds--those are pet birds--that 
were in a pet store in Northern California.
    The three indexed chicken cases, the first three cases in 
chickens, two involved game fowl, one was a backyard egg-laying 
flock. It's very important to know, the reason that we knew 
about the disease in chickens was because the two people who 
owned the game fowl, one gentleman, as soon as his birds became 
sick, took them to the diagnostic laboratory in San Bernardino, 
just what he should do. The gentleman took his birds to a 
private poultry practitioner also in Southern California, also 
what he should do. The owner of the backyard egg-laying flock, 
which by the way, was a veterinarian, not a poultry vet, she 
had 21 chickens. She waited until 18 died until she told 
anyone.
    So I put forward to you the people who acted responsibly 
were the game fowl owners.
    Mr. Green. Mr. Chairman, could I just--I mean the question 
that Mr. Pacelle was responding to was whether or not this 
legislation would make it harder to enforce animal safety, not 
the other issues that have been brought up.
    Mr. Coble. I thank the gentleman.
    Now, folks, as we all know, one of the purposes for 
hearings is to present Members the opportunity to examine both 
sides of the issue. This panel is serving this purpose very 
well. We're getting both sides, and that's the purpose of it. 
We appreciate you all being forthright.
    I'm pleased to recognize the distinguished gentleman from 
Massachusetts, Mr. Delahunt.
    Mr. Delahunt. Yes, thank you, Mr. Chairman.
    Mr. Pollot, what's your opinion of cockfighting, your 
personal opinion?
    Mr. Pollot. My personal opinion is it doesn't interest me 
in the slightest.
    Mr. Delahunt. Do you approve of it?
    Mr. Pollot. I've never seen one. I don't have enough 
information to approve or disapprove.
    Mr. Delahunt. Okay. Dr. Bradley?
    Dr. Bradley. All chickens fight. You can't make a chicken 
fight that doesn't want to fight.
    Mr. Delahunt. I understand that, but I'm asking you your 
opinion of organized cockfighting.
    Dr. Bradley. I never advocate breaking the law. In areas, 
States and countries where it's legal----
    Mr. Delahunt. I'm not asking you----
    Dr. Bradley. Would you allow me to explain?
    Mr. Delahunt. No. I don't have enough time. So the rules 
here are that I ask the question, and if you could give me a 
succinct direct answer, it would be profoundly appreciated. I'm 
just simply asking you your personal opinion. I'm not asking 
you about a legal analysis.
    Dr. Bradley. I apologize.
    Mr. Delahunt. No, no need to apologize.
    Dr. Bradley. I am not opposed to cockfighting where it's 
legal, but I believe in the type of rules where it's not 
necessary that the birds fight to the death.
    Mr. Delahunt. Okay. Thank you. That's very informative.
    Dr. Bradley. You're welcome.
    Mr. Delahunt. I'd like to, you know, inform my own 
understanding. I haven't had a chance to really read the 
statute, but in terms of showing, if you will, game fowl, as 
opposed to the fighting of the birds. The law, as it currently 
exists, does not prohibit showing game fowl. Is that correct, 
Mr. Pollot?
    Mr. Pollot. I believe that that's correct.
    Mr. Delahunt. Is that correct?
    Dr. Bradley. Yes, sir.
    Mr. Delahunt. And that's your understanding too, Mr. 
Pacelle?
    Mr. Pacelle. Without any question. Just as like with pit 
bulls, you can show pit bulls. You just can't fight them. And 
with game fowl, you can show game fowl, you just can't fight 
them.
    Mr. Delahunt. I guess my concern, when I listen to you, 
Professor Bradley, about the response of a law enforcement 
agency, I would suggest--and in a previous career I was the 
chief prosecutor in a jurisdiction in Massachusetts--you know, 
no responsible prosecutor would seek to charge an individual 
for showing game fowl. There has to be significant additional 
evidence that would prove beyond a reasonable doubt that there 
was an intent to have these game fowl engage in cockfighting. I 
mean I have difficulty understanding your argument.
    Dr. Bradley. Right. Well, I'm happy that people are better 
educated about game fowl in your State than in mine. My 
experience has been it's often the case you'll have a police 
officer going down an alley, say, looking for a stolen car, 
looking over back fences. These chickens, person comes out of 
the house and it's a person of color, there is an assumption 
made, oh, those kind of people----
    Mr. Delahunt. Can I interrupt again?
    Dr. Bradley. Yes.
    Mr. Delahunt. Do you have any data?
    Dr. Bradley. I've testified in these cases, sir.
    Mr. Delahunt. Where that has only been----
    Dr. Bradley. There was no paraphernalia, no cockfighting 
pit. The birds were confiscated, taken by animal control. Many 
died in the possession of animal control.
    Mr. Delahunt. There had to be, there had to be additional 
evidence indicating some sort of organized plan to engage in a 
banned, prohibited practice of game fighting.
    Dr. Bradley. No, sir.
    Mr. Delahunt. Were there convictions on those cases that 
you testified in?
    Dr. Bradley. Many of them, luckily, there weren't 
convictions.
    Mr. Delahunt. Okay. Mr. Pacelle?
    Mr. Pacelle. Again, some of the investigators at the Humane 
Society of the United States have been at odds with Dr. 
Bradley. In criminal cases she is often advanced as the expert 
witness, you know, by the cockfighters involved. And I believe 
in all of those cases, it did lead to prosecution. And I'm not 
aware of any individual cases where you didn't have an 
abundance of evidence, whether it's the fighting implements, 
betting slips, scarred or wounded animals. All of that in the 
aggregate is what the prosecutors rely on. And when we advance 
information to law enforcement officials, it's incumbent on 
them to assemble a sufficient amount of evidence to make the 
prosecution stick.
    Dr. Bradley. In several of the recent cases they didn't get 
to court because they were thrown out because there wasn't 
sufficient evidence, but this was after the people's birds had 
been taken, had been mistreated, housed improperly. Some of 
them died in the care of animal control.
    Mr. Delahunt. My time is up.
    Mr. Coble. As I say, I think this issue is important to 
warrant a second round, and we will do that. I am pleased to 
recognize the distinguished gentleman from Ohio, Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. And I'll try to keep 
my questions relatively brief.
    I would just note that the Hamilton County Sheriff's 
Department in Cincinnati is contained within Hamilton County, 
is one of the 390 local sheriff's departments that have 
endorsed the specific legislation that we're talking about here 
today. Since the Hamilton County folks are not here, but the 
Franklin County, Ohio folks, where Columbus, our capital, is 
located, is represented by Corporal Hunt, perhaps, Corporal, I 
could ask you a couple of questions.
    What benefit do you see from having Federal law enforcing 
the animal fighting laws that we've been discussing here, why 
should the Feds get involved, and what benefits do you see from 
us doing that?
    Mr. Hunt. Thank you, Congressman. As referenced in my 
testimony, I have had at least one situation where I did take a 
case to the United States Attorney's Office for the Southern 
District, and it was declined because it was a Federal 
misdemeanor. Their policy was that they don't prosecute Federal 
misdemeanors. So I think if the legislation were to pass as a 
felony, obviously, you had to have the prosecutorial entity on 
board. There's certainly a desire to enforce these laws, not 
only at the local, but at the Federal level. We just need the 
proper tools to do it. And as I mentioned, having the U.S. 
Attorney's Office on board would certainly facilitate that.
    Mr. Chabot. Thank you. And finally, do you have an opinion 
as to which Federal law enforcement agency would be best 
equipped to assist in the enforcement of these laws?
    Mr. Hunt. My initial response would be probably the Federal 
Bureau of Investigation. They certainly have more resources, 
but also realizing that they are extremely taxed with other 
responsibilities, homeland security and whatnot, that possibly 
the U.S. Department of Agriculture would have a substantially 
lighter caseload to where they could pursue this more 
aggressively.
    Mr. Chabot. Thank you very much.
    Mr. Chairman, in the interest of time, I'll yield back the 
balance of my time. Thank you.
    Mr. Coble. Thank you, Mr. Chabot. You have more time if you 
have another question.
    We'll start a second round pending the arrival of a 
reporting quorum. Dr. Bradley, I had a couple questions for 
you, but my friend from Massachusetts has opened the door, and 
I want to pursue this a little more thoroughly. He asked your 
opinion on this.
    Now, folks, let the record show I have never attended a 
cockfight, so I come to you without the benefit of being--I'm 
not implying, Doctor, that you have. I didn't mean that. But 
here's the question I want to ask. Am I correct in assuming 
that some cockfights are performed without the affixing of 
knives, and some don't have the knives?
    Dr. Bradley. That is correct, Mr. Chairman. Different 
cultures have different rules. In some cultures they fight what 
they call the naked heel, or just with the natural spur that 
the birds are hatched with, and they don't attach any other 
implement.
    Mr. Coble. You responded to Mr. Delahunt, Doctor, that you 
do not endorse cockfighting where the animals are permitted to 
be fought until they die. Do you favor cockfights where the 
knives are affixed to the----
    Dr. Bradley. That's an interesting question, Mr. Chairman. 
Many people--and I don't think it's surprising--they find the 
idea that you're attaching a sharp blade to a bird to fight to 
be a very scary thing. It was long ago explained to me by many 
in the game fowl community, that the wounds inflicted with a 
gaffe or another type of knife are cleaner wounds and the birds 
can recover better than with a naked heel. And at some of the 
cockpits, you will have veterinarians on site that will stitch 
up the birds, apply veterinary care at the end of a fight.
    So the people who believe in using the attached implements 
feel that it is in the interest of the welfare of the bird.
    Mr. Coble. Doctor, do you know of any study or studies on 
birds engaged in cockfighting that would indicate that those 
birds are more or less prone to spread disease than birds that 
conversely do not participate in cockfighting? Do you know one 
way or the other about that?
    Dr. Bradley. The disease is not specific to any type of 
bird, and it's certainly not limited to chickens. It's 
important to note in the video that was shown, they showed dead 
swans being taken away, the natural reservoir of high-path H5N1 
are wild ducks and terns. It spreads to other chickens. It can 
spread to other types of birds, to mammals. But chickens, any 
type of chicken is not the natural reservoir of that disease.
    Mr. Coble. Thank you, Doctor.
    Corporal, which Federal law enforcement agency do you 
believe would be best equipped to assist in the enforcement of 
these laws if this bill is enacted?
    Mr. Hunt. Certainly, in my opinion, the FBI would have 
greater resources available to them. There's more field 
offices. There's also a greater working environment with that 
agency, with local law enforcement, not that USDA doesn't, but 
we routinely work with the FBI in other criminal 
investigations. There's already a very strong liaison program. 
So my opinion, I think the FBI would be the most suited for 
that.
    Mr. Coble. I think we have at least been on the fringes of 
this question, but let me get it in the record. Do you believe, 
Corporal Hunt, that given the fact that animal fighting is 
already prohibited in most States, why do you think it needs to 
be prohibited by the Federal Government?
    Mr. Hunt. As I mentioned earlier, most of these parties 
will travel in interstate commerce of this activity. They may 
travel into smaller jurisdictions where local law enforcement 
resources may be virtually nonexistent. A certain county may 
only have a sheriff and two deputies. They don't have the 
resources to investigate it. Whereas, if the person was 
traveling in interstate, the FBI could, or the appropriate 
Federal agency could adopt it.
    Mr. Coble. Mr. Pollot and Mr. Pacelle, do you all want to 
weigh in on this before I yield to Mr. Scott?
    Mr. Pacelle. Thank you. One of the additional reasons, Mr. 
Chairman, is--is now the threat of avian diseases. It's a very 
compelling Federal interest to stop the interstate and 
international movement of birds that could spread Exotic 
Newcastle Disease, avian flu. When you're talking about 
California with Exotic Newcastle Disease, 200 million Federal 
dollars went in to contain this, that would be spilled milk 
compared to avian influenza if cockfighting birds spread that 
to the United States.
    You know, in these fights in Asia that we've seen, one of 
the ways that it was spread is that the knife wounds sometimes 
are delivered to the lungs of the birds, so the birds lungs 
fill with blood, the bird goes down. The handler then picks up 
the bird, puts his mouth over the bird's head and sucks the 
blood out of the lungs. I can't imagine a more direct pathway 
from animal to human in terms of the spread of disease than 
putting a bird's head in your mouth and sucking the blood out 
of the lungs. This is a--it's dangerous international industry.
    Mr. Coble. Dr. Bradley, very quickly, and then it's coming 
to Mr. Scott.
    Dr. Bradley. Certainly, that's a very good way to transmit 
the disease. We also saw in Eastern Turkey, small children who 
were so upset that their only pet, their only possession, their 
chicken was sick, that they were kissing the chicken. The way 
to prevent the spread of disease is to educate, not castigate 
or criminalize. We have to educate people how to prevent the 
spread of disease.
    Mr. Coble. Mr. Pollot, very quickly.
    Mr. Pollot. Mr. Chairman, two things. First, I believe it 
is a far more efficient use of Federal resources to provide 
such things as law enforcement assistant grants to the States 
that ban this, rather than finding ways to unofficially ban it. 
And I know Mr. Pacelle said that it's not a ban, but in impact 
it is.
    Secondly, I was also interested in Mr. Pacelle's answer to 
Congressman Delahunt's comment earlier about the disease issue, 
when his own words were: this is an underground commerce, and 
therefore, they're not expected, they're not this, they're not 
that, which emphasizes the point that if you do drive it 
underground, you are far more likely to end up with a disease 
problem than if you recognize it and expose it to the 
regulatory universe.
    Mr. Coble. I thank the gentleman.
    The distinguished gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you.
    Corporal Hunt, I too haven't attended one of these things. 
You mentioned the fact that the purse in one of these was 
$10,000? What does that mean?
    Mr. Hunt. Very simply, there's a contract entered into 
between the two fighters, and they will agree upon the purse or 
the prize of the outcome of that particular fight. 
Traditionally, each fighter will put up half of the purse, 
winner take all. So in a $10,000 purse, each dogfighter or each 
owner of the fighting dog is putting up $5,000 for that.
    Mr. Scott. And how much is bet on the side at one of these 
fights?
    Mr. Hunt. It can range from the hundreds to the tens of 
thousands. As I mentioned, you know, a lot of drug dealers will 
be there; a lot of disposable incomes available.
    Mr. Scott. Does the operator of this thing--how does he 
make money?
    Mr. Hunt. Sometimes he may receive a portion of the overall 
event.
    Mr. Scott. What do you mean a portion of the overall event?
    Mr. Hunt. There's typically an admission charged. The right 
that I hit, it was $30 to walk in and view the fight. So the 
person promoting the event took in all the door proceeds.
    Mr. Scott. Do they get any cut of the gambling proceeds?
    Mr. Hunt. Sometimes that is possible.
    Mr. Scott. And also, you indicated the Department of 
Justice officials said they don't prosecute misdemeanors. Did 
they make it clear that if it were a felony, they would 
prosecute?
    Mr. Hunt. I really don't recall that, Congressman. I know 
we were dealing with the matter at hand, and I can't recall if 
that came up or not.
    Mr. Scott. But they would not prosecute because it was just 
a misdemeanor.
    Mr. Hunt. And again, this was an Assistant U.S. Attorney 
who was the duty attorney. I don't know if that was written 
policy of their office or not.
    Mr. Scott. Dr. Bradley, are you concerned that if these 
birds are transported interstate that diseases could in fact 
get out of control?
    Dr. Bradley. Any time you have bird movement, Congressman, 
and birds congregating, there is the risk of disease. We all 
experience that when we go to a poultry show or if you have to 
have commercial birds going across State lines. That's why it's 
important to have the people who own the birds, move the birds, 
and receive the birds be educated about signs of disease and 
where they can go for assistance.
    Mr. Scott. Well, if these are being transported essentially 
for illegal purposes, they're not going to--I mean, doesn't 
that open you up to things you have no control over if they're 
not prosecuted, if they're not deterred from transporting these 
birds interstate?
    Dr. Bradley. My role is not a regulatory person. I'm an 
educator, so I want the ability to work with people who own 
chickens, whatever type of chickens they are, so they know 
about disease prevention and health maintenance.
    Mr. Scott. Mr. Pacelle?
    Mr. Pacelle. Dr. Bradley is essentially suggesting that we 
have a regulatory program for monitoring the animal fighting 
industry, and I don't think the American public is going to 
tolerate decriminalizing animal fighting. The trends are in the 
opposite direction. More and more States every year are 
adopting felony-level penalties not only because they consider 
animal fighting a social ill and that it's inhumane and 
barbaric, but it's often associated with other criminal 
activity. Why are these upstanding citizens suddenly--you know, 
who are involved in narcotics traffic, illegal gambling, 
violence against people, why are they suddenly going to be, you 
know, paying attention to disease issues for their birds? I 
mean, we're not going to decriminalize this. We're not going to 
see repeals of State laws on dogfighting and cockfighting.
    Mr. Scott. Thank you.
    Mr. Coble. The gentleman's time has expired.
    The distinguished gentleman from Florida, Mr. Feeney, and 
we're also glad to have the other distinguished gentleman from 
Florida, Mr. Keller, with us. Mr. Feeney?
    Mr. Feeney. Mr. Chairman, thank you. I don't have any 
questions at this time.
    Mr. Coble. Very well. Mr. Keller?
    Mr. Keller. Same, Mr. Chairman. No questions.
    Mr. Coble. Oh, I thought you had gone, Bill. I didn't see 
you. Mr. Delahunt?
    Mr. Delahunt. If I could impose upon Mr. Pacelle, I would 
request, Mr. Chairman, that those magazines that you held up be 
introduced and made part of the record of this particular 
hearing.
    Mr. Pacelle. Mr. Delahunt, thank you. You know, we will 
submit samples of the three aboveground cockfighting magazines 
as well as many of the dogfighting magazines, Sporting Dog 
Journal, American Pit Bull, Terrier Gazette. These are 
appalling magazines, and, frankly, they're used through the 
Postal Service to promote illegal animal fighting activities. 
And I think that it raises very significant legal questions for 
enforcement authorities by promoting this conduct, the 
Federal----
    Mr. Delahunt. Mr. Chairman, if we can make these magazines 
part of the record, I'd request that you have Committee staff 
refer these magazines to the Department of Justice for review 
to report back to the Committee whether there are any 
violations of existing criminal statutes.
    Mr. Coble. Without objection, that will be done.
    Mr. Delahunt. Thank you.
    You know, I am interested in--Mr. Pollot, this organization 
you belong to, are you on the board of directors?
    Mr. Pollot. No, I'm not a member of the organization.
    Mr. Delahunt. Oh, you're not?
    Mr. Pollot. No. I represent the organization.
    Mr. Delahunt. So you're their counsel?
    Mr. Pollot. For some purposes.
    Mr. Delahunt. For some purposes.
    Mr. Coble. Mr. Delahunt, if you would suspend just a 
moment, I thank you all for being here, and once Mr. Delahunt--
--
    Mr. Delahunt. It looks like a full house here today.
    Mr. Coble. We have a full house, and once Mr. Delahunt 
completes his questioning, we will mark up. And if the 
panelists would remain, I'd like to visit with you all before 
you leave.
    Mr. Delahunt. May I have another 10 or 15 minutes of time 
for----
    Mr. Coble. The gentleman from Massachusetts may continue.
    Mr. Delahunt. What have you represented them in, Mister----
    Mr. Pollot. We are looking at the constitutionality of the 
existing law.
    Mr. Delahunt. Okay. You don't disagree with the proposition 
that the current legislation is simply an enhancement of the 
penalty so that the same constitutional concerns that you 
articulate don't change, there is no new legal theory, at least 
that I can discern.
    Mr. Pollot. Mr. Chairman and Congressman, I hate to sound 
like a lawyer, but yes and no. Mr. Pacelle had pointed out 
there is a provision here that is not in existing law with 
respect to----
    Mr. Delahunt. Oh, with respect to the----
    Mr. Pollot. With the paraphernalia.
    Mr. Delahunt. The knives and the----
    Mr. Pollot. Right, and I'd also point out----
    Mr. Delahunt. What do you call them, gaffs?
    Mr. Pacelle. G-a-f-f-s.
    Mr. Pollot. Like a fishing gaff, I believe.
    Mr. Delahunt. Fishing gaff?
    Mr. Pacelle. Like a curved ice pick.
    Mr. Delahunt. What else--what other kind of instruments do 
they use in these cockfights?
    Mr. Pacelle. There are short knives, there are long knives, 
or gaffs. Those are--you use the same implement on both birds 
for an even--for an even fight. So, you see----
    Mr. Delahunt. That really does sound barbaric, at least in 
my opinion, knives, long knives, ice picks. You know, I have to 
suggest that--and you were earlier referring to the Commerce 
Clause and its implications. I really don't see an issue there. 
But then you went on to talk about policy. I would suggest, 
respectfully, that the United States Congress has articulated 
the Federal Government's policy in terms of the transportation 
of these animals for purposes of cockfighting. I mean, I wasn't 
here when the law was passed, but I would have supported it. 
And it seems rather clear that this is the policy of the 
Government of the United States.
    Mr. Pollot. Well----
    Mr. Delahunt. Other than the constitutional Federal--you 
know, federalism arguments that you make.
    Mr. Pollot. Congressman, I'm not disputing that this may 
well be the policy of the Federal Government, although it's not 
uniform with respect to game fowl as opposed to other kinds of 
fighting animals. However----
    Mr. Delahunt. What other fighting--I'm not really into the 
fighting animal subculture----
    Mr. Pollot. I understand, Congressman.
    Mr. Delahunt. But if you could--what other--just for my 
edification.
    Mr. Pollot. Well, the reason I raise that is that the law 
does not--the Federal policy as it exists does not treat them 
the same.
    Mr. Delahunt. Is discriminatory against the animal kingdom 
as to who we let fight and who we don't let fight.
    Mr. Pollot. Yes, but aside from that, the Constitution----
    Mr. Delahunt. I doubt, with all due respect, Mr. Pollot, 
that that would rise to the level of a constitutional 
classification issue based upon the Equal Protection Clause.
    Mr. Pollot. I'm not suggesting--I have not raised an Equal 
Protection argument at all. I mean, frankly, animals don't have 
equal protection rights, and Congress is certainly free to 
choose. My point--I pointed that out only to recognize that the 
policy is there, but it is not uniform across the statute. The 
issues I raise are federalism----
    Mr. Delahunt. Well, how is it not uniform across the 
statute? Because there are other----
    Mr. Pollot. Certain types of activities are totally banned. 
Certain types are not.
    Mr. Delahunt. Like--give me an example?
    Mr. Pollot. Dogfighting is, cockfighting is not.
    Mr. Delahunt. Okay. What other--like I said, I'm brand new 
to this subculture, so if we--what other animals do we--or they 
pay to see fight?
    Mr. Pacelle. Well, it's dogs for fighting, and then we 
spoke earlier before you arrived, Congressman, hogs are 
released, have their tusks removed and pit bulls are sicced 
upon them to tear them up.
    Mr. Pollot. Also bears, if I recall correctly. I did want 
to----
    Mr. Delahunt. I thank you, Mr. Pollot. I would just 
conclude by saying, you know, I really find that all just 
barbaric, disgusting, and unacceptable in a civilized society, 
and with that I yield back.
    Mr. Coble. I thank the gentleman.
    Folks, I would like for you all--if you all can, I'd like 
to visit with you after we adjourn. I thank the witnesses for 
their testimony. The Subcommittee very much appreciates this. 
In order to ensure a full record and adequate consideration of 
this important issue, the record will be left open for 
additional submissions for 7 days.
    Also, any written questions that a Member wants to submit 
to any of the witnesses must be submitted within the same 7-day 
period.
    This concludes the legislative hearing on H.R. 817, the 
``Animal Fighting Prohibition Enforcement Act of 2005.'' Again, 
we thank those in the audience as well as the panelists, and if 
you all could, without undue inconvenience, I would like to 
visit with you four very briefly after we conclude our markup.
    The hearing stands adjourned.
    [Whereupon, at 1:33 p.m., the Subcommittee proceeded to 
other business.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Prepared Statement of the Honorable Mike Pence, a Representative in 
                   Congress from the State of Indiana


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
           Written Supplement to Testimony of Mark L. Pollot


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
Prepared Statement of W. Ripley Forbes, Director of Government Affairs, 
                        American Humane Society

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
       Letter from Kurt P. Henjes, Assistant General Counsel for 
             GlaxoSmithKline, to the Honorable Howard Coble

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Statement from the American Veterinary Medical Association in support 
                              of H.R. 817



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
